<html>
<title> - IMPROVEMENTS IN HURRICANE FORECASTING AND THE PATH FORWARD</title>
<body><pre>[Senate Hearing 114-561]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-561

       IMPROVEMENTS IN HURRICANE FORECASTING AND THE PATH FORWARD

=======================================================================

                                 HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   
  
  
                            U.S.GOVERNMENT PUBLISHING OFFICE
24-174 PDF                         WASHINGTON : 2017                            
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddbaadb29dbea8aea9b5b8b1adf3beb2b0f3">[email&#160;protected]</a>  
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
                   
                   
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                  Adrian Arnakis Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 
                                 
                             ----------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARCO RUBIO, Florida, Chairman       CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
KELLY AYOTTE, New Hampshire          RICHARD BLUMENTHAL, Connecticut
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 25, 2016.....................................     1
Statement of Senator Rubio.......................................     1
Statement of Senator Booker......................................     3
Statement of Senator Nelson......................................     5
Statement of Senator Schatz......................................    20
Statement of Senator Blumenthal..................................    21
Statement of Senator Markey......................................    27

                               Witnesses

Dr. Richard Knabb, Director, National Hurricane Center, National 
  Weather Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................     6
    Prepared statement...........................................     9

                                Appendix

Response to written question submitted to Dr. Richard Knabb by:
    Hon. John Thune..............................................    31
    Hon. Marco Rubio.............................................    31

 
       IMPROVEMENTS IN HURRICANE FORECASTING AND THE PATH FORWARD

                              ----------                              


                        WEDNESDAY, MAY 25, 2016

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:20 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Marco Rubio, 
Chairman of the Subcommittee, presiding.
    Present: Senators Rubio [presiding], Ayotte, Booker, 
Nelson, Blumenthal, Schatz, and Markey.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. We'll call this hearing to order.
    I want to thank all of you for being here. I apologize for 
the delay. We had another meeting that ran over a few minutes.
    I wanted to convene this hearing one week before the 
official start of the 2016 hurricane season. As the hearing 
title suggests, we will be focusing on improvements in 
forecasting, and we will discuss how track and intensity 
forecasts can be further enhanced.
    Ninety years ago, Florida was hit by a Category 4 storm 
that was later named the Great Miami Hurricane, but it not only 
devastated Miami but crossed the Gulf of Mexico, inflicting 
damage to Pensacola Bay. This was a time of little 
meteorological data or capabilities, and, thus, alerts to 
Floridians came too late.
    The National Hurricane Center reports that Coconut Grove 
experienced a 15-foot storm surge, and people mistakenly left 
their homes as the storm's calm eye centered overhead. It is 
unclear how many people perished, as the Red Cross estimates 
373 souls lost their lives, but the count cannot be certain as 
more than 800 people were missing.
    Although my home state of Florida has not seen a hurricane 
make landfall in almost 11 years, we must never sit idle and 
succumb to hurricane amnesia.
    Innovation is the key to ensuring lives and property are 
spared by accurate forecasting. This hurricane season, there 
are two new tools that will be at the disposal of our 
researchers and forecasters.
    The first is called the Coyote. It is a small unmanned 
aerial system deployed directly from the P-3 hurricane hunters. 
This drone is able to fly into weather conditions that are 
otherwise impossible for manned aircraft, while capturing 
atmospheric observations and relaying that data in real time to 
the Hurricane Center.
    While this technology has been in testing since 2014, I 
hope it will be fully utilized in upcoming storms.
    The second involves tools for storm surge, which is 
critically important as water is responsible for 90 percent of 
the deaths associated with storms. The storm surge watch and 
warning graphic, while still in the experimental phase, will 
provide watches and warnings to coastal residents similar to 
those issued for tropical storms or hurricanes, but will focus 
solely on the risks associated with high water. In response to 
these risks, it will issue guidance for evacuations in the 
areas impacted.
    The potential storm surge flooding map, which began testing 
during 2014, will finally become operational this season. This 
map will highlight areas where storm surge could inundate areas 
and estimate the height at which waters could reach.
    One only needs to look at Hurricane Katrina to realize how 
devastating storm surge can be. Not heeding storm surge 
warnings could be the difference between life and death.
    I applaud the National Hurricane Center for its work on 
this new tool, and I stress the importance of educating people 
on the dangers of storm surge. The need for timely and accurate 
forecasts cannot be overstated. Indeed, advancements in 
forecasting have made great strides as technology and research 
have intersected.
    As our witness notes in his written testimony, the National 
Hurricane Center's five-day track forecast is about as accurate 
as the three-day forecast was just 20 years ago.
    This improvement in modeling not only allows more notice 
for evacuations, which will help especially in the Florida 
Keys, but appropriately provides for proper planning and damage 
mitigation to be conducted prior to a storm.
    Also, increased confidence in the center's track and 
intensity forecasts will lead to the public's trust in heeding 
those warnings.
    Last year, along with my colleague Senator Nelson, I 
introduced the Hurricane Forecast Improvement Act. This bill 
would require NOAA to improve guidance for hurricane track, 
intensity, and storm surge forecasts. It is modeled after 
NOAA's Hurricane Forecast Improvement Project, which has laid 
the groundwork for coordinating and improving research.
    This program has a worthy goal of reducing errors in storm 
tracking. And with continued research, it is my hope a 
reduction in the loss of life, injury, and economic harm will 
result.
    Now is the time to continue the momentum for research and 
technology to drive our forecasters to better track storms, not 
cut millions of dollars from the project, as the 
administration's Fiscal Year 2017 budget suggests.
    I had hoped my legislation, which was adopted in Chairman 
Thune's larger weather bill, would have made it to the 
President's desk by now. But, unfortunately, it has been tied 
up due to unrelated issues.
    Nonetheless, I will continue to push for its passage and 
support the center's work for better forecasting.
    I must note that Senator Nelson has been a good partner in 
these efforts. I know he will be here in a few moments to speak 
to us as well, and I look forward to continuing that 
partnership so that this does, indeed, get signed into law.
    In closing, Floridians will always remember the year 1992 
as the year Hurricane Andrew changed the landscape of our state 
forever. Known as the third largest hurricane to hit the United 
States, Andrew produced a 17-foot storm surge, was responsible 
for 23 deaths, and caused $26.5 billion in damage. For the 
terrible destruction the storm inflicted on Florida, it also 
shed light on the need to be prepared.
    Last week, our Nation recognized Hurricane Preparedness 
Week. Our witness, Dr. Knabb, took part in many activities 
throughout the gulf coast to increase awareness. Education 
coupled with strong support from State and local partnerships 
is the key to ensuring families and have a hurricane plan in 
place.
    At the end of the day, the most important function of storm 
forecasting is, indeed, to protect the lives of those we love.
    Floridians are incredibly resilient, but as we enter this 
year's hurricane season, which I hope will not be active, I 
urge everyone to assess the risk and develop a plan and be 
prepared.
    On a side note, two weeks ago, I visited the National 
Hurricane Center in Miami, and I saw firsthand the good work 
that is being done on this front.
    Again, I thank Dr. Knabb for appearing before us today.
    Now I recognize Ranking Member Booker for his opening 
statement.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I want to thank Chairman Rubio for having 
this very important hearing. It is an honor to sit between two 
Florida Senators. It is also very appropriate, given how many 
people from New Jersey are retiring in Florida.
    [Laughter.]
    Senator Booker. This really reflects the demographics of 
his state.
    This is a very important hearing, but it is also a very 
timely hearing, as the National Hurricane Center prepares for 
the upcoming hurricane season, which starts just next week.
    I would like to thank our witness, Dr. Richard Knabb, the 
Director of the National Hurricane Center. I really thank him 
for his testimony and his dedicated service to our Nation.
    On October 29, 2012, Hurricane Sandy made landfall in 
southern New Jersey. It, too, as was discussed earlier by the 
Chairman about Andrew, changed our state forever.
    By the time it had dissipated, it had claimed 159 lives and 
left more than $70 billion in damage along its path. Sandy 
affected the entire eastern seaboard from Florida to Maine with 
its gale force wind gusts as far west as the western Great 
Lakes.
    Hurricanes wreak havoc, bring devastation, and bring pain 
and agony to families. They also bring devastation and pain to 
our economy.
    There are 30 coastal states that border the Atlantic, the 
Pacific, the Gulf of Mexico, and the Great Lakes. Nearly 40 
percent of Americans live and work in coastal regions, 
contributing to over half of our Nation's economic 
productivity.
    Rising ocean and atmospheric temperatures are causing more 
extreme weather events. Scientists are telling us that we can 
expect the frequency of the most intense storms to increase 
substantially in some areas, including the Atlantic basin.
    Manmade climate change, I believe, is real. Manmade impacts 
on our climate system are real.
    According to the Intergovernmental Panel on Climate Change, 
manmade global warming by the end of the 21st century will 
cause hurricanes globally to be more intense, on average of up 
to 11 percent stronger. Those sound like abstract percentages, 
but that equates to significantly more damage to our 
communities.
    Just last year, we had a record-setting storm with 
Hurricane Patricia. It reached sustained winds of 215 miles per 
hour, the strongest recorded hurricane in history.
    Accurate hurricane prediction is absolutely vital for all 
levels of government when we are making emergency management 
decisions and keeping the public out of harm's way. Those at 
the National Hurricane Center, under the leadership of Dr. 
Knabb, are making exceptional progress in their efforts to 
increase observation and develop products that improve the 
forecasting accuracy.
    This coming hurricane season, NOAA will deploy up to eight 
Coyote unmanned aircraft, which will fly above and through 
future hurricanes to better measure critical data within 
storms. In addition, the center's new potential storm surge 
flooding map will become fully operational this hurricane 
season and will provide critical evacuation and emergency 
management information, potentially saving many lives.
    In New Jersey, the Geophysical Fluid Dynamics Lab (GFDL) is 
conducting research on the gaps in data linking extreme weather 
events and climate change. Scientists at the GFDL use high-
performance computing to develop models and simulations to 
improve understanding and prediction of the behavior of the 
atmosphere, the oceans, and climate.
    This research can be used to understand the causes of 
unusual and destructive events such as Sandy and Andrew, and 
lead to improved hurricane predictions.
    We must do more. We must do more to connect our global 
climate models with our regional hurricane models. What is 
ultimately needed is a unified prediction system that pushes 
the boundaries of forecasting from hours to years so that we 
can save more lives.
    We cannot prevent future hurricanes from happening, but we 
can certainly prevent future lives from being lost. It is 
imperative that we increase our funding for R&D in this area.
    Again, I want to thank the Chairman for his leadership on 
this issue and for holding this hearing. I look forward to 
hearing from our witnesses. Now, I imagine I would like to hear 
from the other Senator from Florida.
    Senator Rubio. The senior Senator from Florida and the 
Ranking Member on the Commerce Committee, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Dr. Knabb, I hope you have a very boring job all the way up 
through the end of November.
    We have been lucky for 10 years, but we weren't so lucky in 
1992 with Hurricane Andrew. Then there was Katrina and Rita and 
Wilma in 2005, which covered Florida. So I hope you have a 
boring job.
    As Senator Rubio and I know as native Floridians, 
hurricanes are a way of life. It used to be that way. It hasn't 
been that way for the last 10 years.
    When I was a kid, a hurricane was an excuse to get out of 
school. When I was a bachelor, a hurricane was an excuse to 
have a party. But now these things are deadly. We know what 
Andrew did to Florida's homeowners' insurance marketplace. We 
know the 26 people who were killed by Andrew. And you can go on 
and on.
    What Senator Booker was talking about, this UAV called a 
Coyote. We had it here yesterday. It is about that long. You 
eject it from the P-3 through a hole in the underside of the 
airplane, and it is like a canister instrumented like a normal 
sonde, like the sondes that are about that long, that big 
around that we eject out of the G-IV that flies at 45,000 feet 
over the hurricane. But the P-3 goes right in.
    Then this thing comes out of the airplane. It opens up the 
wings. It opens up the tail. It opens up the propeller. It can 
go out there, get into the eyewall and loiter where the 
fiercest winds are, taking all of these measurements to help 
folks like Dr. Knabb more accurately predict the hurricane's 
track, its intensity, and its winds. That means saving a lot of 
lives and a lot of property.
    Senator Rubio and I have been looking at this and filing 
legislation to codify the Hurricane Forecast Improvement 
Project. We simply have too much at risk.
    So I am looking forward to the head of the Hurricane 
Center's testimony.
    Senator Rubio. Thank you. I am going to defer my questions. 
Actually, let's begin with our distinguished witness today, Dr. 
Knabb, who is the Director of the National Hurricane Center. He 
received his Bachelor's Degree in Atmospheric Science from 
Purdue, and his Master's of Science and Doctorate of 
Meteorology from Florida State University.
    I was going to make a joke because I'm from Florida, but 
Florida State is great. We talked about it when I went to visit 
you.
    Dr. Knabb. You can make a Rutgers reference, if you like.
    Senator Rubio. He didn't go to Rutgers.
    But I was just commenting, when I was visited there, a lot 
of the forecasters, Florida State was well-represented in the 
Hurricane Center.
    He completed his postdoctoral work at the University of 
Hawaii, and he has served as Director at the National Hurricane 
Center since 2012.
    We appreciate you appearing before us today, and we look 
forward to your testimony.

       STATEMENT OF DR. RICHARD KNABB, DIRECTOR, NATIONAL

          HURRICANE CENTER, NATIONAL WEATHER SERVICE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Knabb. Good afternoon, Chairman Rubio and Ranking 
Members Booker and Nelson, and members of the Subcommittee. It 
truly is my honor to testify before you today on the state of 
the United States hurricane forecasting capabilities.
    I will also focus on the partnerships between NOAA and 
other Federal, State, and local government agencies that make 
effective use of these forecasts and to whom we provide 
decision-support services, and our public outreach and 
education efforts in collaboration with numerous public and 
private partners to prepare our citizens well in advance of the 
next hurricane.
    We at NOAA welcome your interest, support, and the 
opportunity to discuss these important topics.
    NOAA's National Weather Service has the best forecasters 
and technical experts in the world that enable us to provide 
critical lifesaving forecasts, warnings, products, and 
services. The National Hurricane Center is one of nine centers 
of expertise in the National Centers for Environmental 
Prediction, known as NCEP. That is part of the National Weather 
Service as well.
    The Hurricane Center mission is to save lives, mitigate 
property loss, and improve economic efficiency by issuing the 
best watches, warnings, forecasts, and analyses of tropical 
weather, and, importantly, by increasing the understanding of 
these related hazards.
    The Hurricane Center also conducts an extensive outreach 
and education program, and it is a very visible component of 
building a weather-ready Nation.
    The United States has not experienced a landfall of a major 
hurricane defined as Category 3 on our Saffir-Simpson hurricane 
wind scale since Wilma in October 2005. Wilma was also the last 
hurricane of any intensity to strike the state of Florida.
    Nevertheless, several other hurricanes and tropical storms 
have come ashore in the United States and resulted in major 
impacts and loss of life in this country. Many of those impacts 
and losses, including Sandy in New Jersey, have been due to 
water, with storm surge causing fatalities and extensive damage 
in coastal areas, and deadly and damaging freshwater floods 
caused by heavy rain extending well inland.
    We continue that hurricanes and tropical storms are not 
just coastal events or just a problem for people with 
beachfront property.
    Our recent studies have documented that during the past 
half century, nearly nine out of 10 fatalities, as Senator 
Rubio mentioned, in the United States from the direct forces of 
tropical cyclones have been due to water. Wind can be dangerous 
and destructive, of course, but people often do not realize 
just how heavy, powerful, damaging, and deadly water can be.
    In addition to the lives we lost at the beach and on boats, 
25 percent of these fatalities have been caused by rain-induced 
flooding that is the most frequent cause of death, meaning that 
it has taken lives in more tropical cyclones than any other 
hazard.
    But the deadliest hazard overall, however, taking the 
largest number of lives overall in far fewer events, has been 
storm surge. Storm surge causes about half of the direct 
tropical cyclone fatalities in the United States.
    So motivated by the desire to reduce storm surge 
fatalities, we have placed a heavy focus on storm surge in our 
tropical cyclone product development during the past several 
years. That work is coming to fruition.
    A potential storm surge flooding map is operational 
beginning this hurricane season. Developed over several years 
in consultation with social scientists, emergency managers, 
broadcast meteorologists, and others, this map shows in a game-
changing way, I believe, where the storm surge flooding could 
occur; how far inland from the immediate coastline the flooding 
could go that could be miles in some locations, in some 
scenarios; and how high above normally dry ground storm surge 
floodwaters could reach in a given community.
    So emergency managers will be able to more clearly identify 
areas that they must decide to evacuate. And our media partners 
will be much more on the same page, conveying a consistent 
message on storm surge.
    And the map will first be disseminated when we issue a 
hurricane watch or tropical storm watch, and when storm surge 
poses a threat for any portion of the Gulf or East Coast of the 
United States.
    Then, in 2017, we plan to issue a new National Weather 
Service storm surge watch and warning for tropical cyclones. 
While it is not an actual watch and warning for 2016, we will 
this year experimentally issue a prototype storm surge watch/
warning graphic for tropical cyclones for the gulf and east 
coast of the United States. This graphic, like the actual 
warning will be in 2017, will depict those areas that have a 
significant chance of a life-threatening storm surge.
    The goal of both, the potential storm surge flooding map 
and the storm surge watch and warning, it is to increase the 
chances that when people are instructed by their emergency 
managers to evacuate, they go.
    The effectiveness of our partnerships with the emergency 
management community at the Federal, State, local, and tribal 
levels are as high as ever. NOAA, FEMA, the U.S. Army Corps of 
Engineers, and the Federal partners in the National Hurricane 
Program provide evacuation decisionmaking training and tools to 
State and local emergency managers. The jointly run Hurricane 
Liaison Team at the Hurricane Center then supports real-time 
decisionmaking by facilitating the rapid exchange of critical 
information regarding tropical cyclone hazards and their 
potential impacts between NHC and emergency managers at all 
levels.
    Our advances in communicating these individual wind and 
water hazards are taking advantage of the tremendous progress 
NOAA has made in tropical cyclone predictions. We have reduced 
tracked forecast errors by about half during the past 15 years 
in our 5-day track forecast today, about as accurate as the 3-
day forecast was about 20 years ago.
    In addition, tropical cyclone forecasts were recently 
extended from 2 to 5 days, the tropical cyclone formation 
forecasts.
    Work is also well underway to develop the capability to 
issue Hurricane Center forecasts and Weather Service tropical 
storm and hurricane watches and warnings even prior to the 
formation of a tropical cyclone, with a potential debut of the 
capability experimentally in 2017.
    This change would enable us to issue even more timely 
watches and warnings for storms that form close to the U.S. 
coast, including storm surge watches and warnings starting in 
2017.
    The new supercomputers that Congress appropriated have 
allowed us to run more complex and sophisticated forecast 
models, including the new Hurricane Weather Research and 
Forecast, or HWRF, model. The HWRF represents a significant 
step forward in our operational prediction of hurricane 
structure and intensity. This research and development has been 
a joint effort between NOAA, primarily involving the Weather 
Service and NOAA's research division, OAR, and our academic 
partners as part of the Hurricane Forecast Improvement Project, 
HFIP.
    HFIP continues with a multiyear, multimillion dollar effort 
to improve hurricane forecasts intending to improve tracking 
and intensity forecasting accuracy by 50 percent in 10 years. 
We are already meeting the 5-year HFIP goal to reduce hurricane 
forecast track and intensity errors by 20 percent.
    Recent enhancements that have been made to the operational 
HWRF have made it our best performing intensity forecasting 
model during the 2013 to 2015 period.
    Operations continue to benefit from and rely on aircraft 
reconnaissance, both the WC-130J aircraft of the U.S. Air Force 
Reserve from the 53rd Weather Reconnaissance Squadron, 403rd 
Wing, in Biloxi, Mississippi, and the NOAA G-IV jet, and NOAA 
P-3 stationed at MacDill Air Force Base in Tampa, Florida.
    We are also excited about the launch of the new GOES-R 
satellite scheduled for later this year. Its technological 
advances include improvements upon existing data, such as 
dramatically increased spatial, temporal, and spectral 
resolutions for Earth monitoring, and new observations such as 
lightening data.
    I am convinced that all of the data forecast technology, 
products, warnings, evacuation decisions and plans will not 
achieve their full potential if individuals, families, and 
businesses do not prepare now, well in advance for the next 
hurricane. People need to know ahead of time what they will do 
during an actual hurricane event, so that they can survive the 
event and recover quickly in the aftermath.
    Many things that we all desperately need to do, including 
myself and my family, to prepare are far more difficult, 
expensive, or even impossible to do if we wait until a 
hurricane is on our doorstep.
    We battle mightily against public complacency and a lack of 
preparedness as certain parts of the country have gone for 
years, or even decades in some places, since their last 
significant hurricane impact. We work hard to explain that 
overall hurricane activity has almost no relationship to 
hurricane impacts in any one community.
    We remind everyone that it only takes one. In 1992, that 
hurricane season was below average, overall, and Andrew was the 
one that struck South Florida as a Category 5 hurricane. There 
was a tremendous difference between how busy the season might 
be overall and how bad it could be where you live. We all must 
prepare for hurricane season the same way every year.
    Thank you for the opportunity to testify today. I'm happy 
to take any questions you might have.
    [The prepared statement of Dr. Knabb follows:]

 Prepared Statement of Dr. Richard Knabb, Director, National Hurricane 
  Center, National Weather Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
    Good morning Chairman Rubio, Ranking Member Booker, and Members of 
the Subcommittee. It is my honor to testify before you today on the 
state of United States hurricane forecasting capabilities, the 
partnerships between the National Oceanic and Atmospheric 
Administration (NOAA) and other government agencies that make effective 
use of those forecasts, and our public outreach and education efforts 
to prepare our citizens well in advance of the next hurricane. We at 
NOAA welcome your interest and the opportunity to discuss these 
important topics. NOAA's mission is to understand and predict changes 
in the Earth's environment, from the depths of the ocean to the surface 
of the sun, and to conserve and manage our coastal and marine 
resources. As a mission-driven, operational agency, NOAA is responsible 
for global satellite observations, atmospheric and oceanic research 
(both in-house and collaborative research with our valued external 
partners), operational weather and water forecasts, and the delivery of 
critical products and services.
    The National Weather Service (NWS)--a line office within NOAA--is a 
science-based service organization that works closely with NOAA's other 
line offices in carrying out its mission. NWS has the sole Federal 
responsibility for issuing weather and water warnings to protect lives 
and property in communities across the country and in U.S. territories. 
NOAA provides environmental information and forecasts to American 
citizens, businesses, and governments to enable informed decisions on a 
range of issues and scales--local to global and short-term to long-
term. NOAA provides a suite of products and services to the American 
people, including the reliable and timely delivery of public weather 
warnings that help safeguard lives. To do so, we work closely with the 
larger community of state, local, and tribal emergency management 
officials, other Federal agencies, and the commercial weather industry 
to deliver the best possible information that science and technology 
can provide. Put simply, NOAA provides critical information that saves 
lives and enhances our national economy. We also work with the external 
community to continually conduct weather and water research to improve 
our forecasts and warnings.
    The NWS has the best forecasters in the world providing critical, 
life-saving products and services. However, to take weather prediction 
to the next level and ensure that the U.S. becomes a Weather-Ready 
Nation in the face of increasing weather and water threats, the NWS 
must evolve. To ensure that forecasts are better used by a diverse 
group of decisionmakers, we are striving to provide more accurate and 
consistent forecasts through a fully integrated field office structure. 
We are organizing ourselves internally to ensure our forecasters have 
strong and effective relationships with decisionmakers at the Federal, 
State, local and tribal levels. The success of NOAA's mission in this 
area depends on four integrated pillars: observations; supercomputing; 
research; and our forecasters.
    The NWS National Hurricane Center (NHC) is one of nine NWS National 
Centers for Environmental Prediction (NCEP). NHC's mission is to: save 
lives; mitigate property loss; and improve economic efficiency by 
issuing the best watches, warnings, forecasts and analyses of tropical 
weather, and by increasing understanding of related hazards. NHC has a 
vision to be America's calm, clear and trusted voice in the eye of the 
storm and, with our partners, to enable communities to be safe from 
tropical weather threats. NHC maintains a continuous weather watch, and 
issues analyses, forecasts and warnings of weather and ocean conditions 
over millions of square miles of the North Atlantic, including the Gulf 
of Mexico and Caribbean Sea, and the eastern North Pacific. It 
communicates its products through multiple methods, including the 
media. NHC also conducts an extensive outreach and education program as 
a very visible component of building a Weather-Ready Nation. NHC's 
operational, outreach, and other supporting activities are conducted by 
extensively collaborating with the local NWS Weather Forecast Offices, 
other NCEP centers, other line offices within NOAA, the emergency 
management community and other agencies at the Federal, State, local 
and tribal levels, the media, other private sector entities, academia, 
like-minded nonprofit organizations, and numerous international 
meteorological services and other organizations.
    Over the past few years, NOAA has made noteworthy progress 
supporting the hurricane program. Funding provided in the Disaster 
Relief Appropriations Act, 2013, referred to as the ``Sandy 
Supplemental,'' has provided NOAA significant funding for ocean 
observing, hurricane related research, coastal monitoring, upgrades to 
the two NOAA Hurricane Hunter aircraft, accelerating our hurricane 
related storm surge prediction capabilities, and providing a critical 
historic enhancement in operational high-speed computing leading to 
higher resolution computer models.
The Hurricane Challenge
    The United States has not experienced landfall of a major hurricane 
(defined as Category 3 or stronger on the Saffir-Simpson Hurricane Wind 
Scale) since Wilma in October 2005. Wilma was also the last hurricane 
of any strength to strike the state of Florida. Nevertheless, several 
other hurricanes and tropical storms have come ashore and resulted in 
major impacts and loss of life in this country. Many of those impacts 
and losses have been due to water, with storm surge causing extensive 
damage in coastal areas and freshwater floods extending well inland. 
Storm surge from tropical storms and hurricanes poses a great threat 
for large loss of life in a single day, and has always been a factor 
even prior to more recent notable storm surge events including Ike 
(2008) and post-tropical storm Sandy (2012). NOAA is developing new 
tropical storm surge products and warnings that are scheduled to be 
implemented operationally during the next couple of years. Work also is 
underway to develop the capability to issue tropical warnings even 
prior to the formation of a tropical cyclone, with potential debut of 
this experimental capability in 2017, which will enable even more 
timely watches and warnings to be issued for storms that form close to 
the U.S. coast.
    An important strategy in our operational communications, 
development of new products and warnings, and outreach and education 
efforts is to lessen the focus on the category of the hurricane and 
increase attention on the individual impacts from wind and water 
hazards that could occur in each community--namely winds, tornadoes, 
storm surge, inland flooding, and ocean waves and rip currents. We 
continue to emphasize that hurricanes and tropical storms are not just 
coastal events or just a problem for people with beachfront property, 
as evidenced from post-tropical storm Sandy.
    Since the establishment of the NHC in the 1950s, NOAA has built 
collaborations with emergency managers, the media, and the research 
community--collaborations that have helped reduce U.S. hurricane-
related deaths by two-thirds. We have recently published statistics 
that reveal how much work remains to be done to further reduce the loss 
of life from tropical cyclones in this country. During the past half 
century, we have lost almost as many people to ``indirect fatalities'' 
as we have to ``direct fatalities.'' Indirect fatalities are casualties 
that, while not directly attributable to one of the physical forces of 
a tropical cyclone, would have been unlikely to occur in the absence of 
the storm. These indirect fatalities include, among others, deaths 
attributable to carbon monoxide poisoning, cardiovascular failure, 
vehicle accidents, electrocution, falls, and fires in residences caused 
by open flames.
    Direct deaths are defined as fatalities attributable to the forces 
of the storms and their remnants. The most common examples of direct 
deaths from tropical systems are drowning as a result of storm surge, 
storm-driven waves, rip currents, or freshwater floods from rain. They 
also include physical trauma incurred from wind-borne debris or 
structural failure induced by wind (including hurricane-spawned 
tornadoes). Almost 90 percent of deaths from land falling tropical 
cyclones are attributable to water. Storm surge incidents accounted for 
about half of the deaths, while inland flood events caused by excessive 
rainfall took close to one quarter of the lives. After adding the many 
people who also lost their lives at the beach due to rip currents or 
waves, or while boating, that leaves only about 10 percent of direct 
fatalities being due to wind.
    Storm surge from tropical cyclones remains a great threat for a 
large loss of life event from a single-day natural disaster. 
Recognizing this situation, our product development during the past 
several years has placed a heavy focus on storm surge from tropical 
systems, and that work is showing good results. In 2014, NHC began 
experimental production of a Potential Storm Surge Flooding Map, which 
will be operational beginning this hurricane season. In 2017, the NWS 
plans to issue tropical system-related Storm Surge Watches and Warnings 
for the East and Gulf Coast states, actions designed reduce the number 
of storm surge fatalities. We have also significantly increased our 
outreach and education efforts on tropical storm surge and on water 
hazards overall, since the public generally tends to misunderstand and 
underestimate their risk due to water. The hurricane challenge is 
exacerbated by an increasing vulnerability as coastal populations and 
infrastructure grow. NOAA's public outreach messaging is not only about 
the hurricane hazards themselves, but also about what people should be 
doing to get ready, starting well in advance of the next hurricane, and 
about resiliency in the face of the hazards that could occur where they 
live.
    We battle mightily against public complacency as certain parts of 
the country have gone for years to decades since their last significant 
hurricane impact. That fact motivates us to be innovative and leverage 
partnerships to increase the reach and effectiveness of our outreach 
and education efforts. The introduction of new tropical storm surge 
products and warnings during the next couple of years will also serve 
to increase public and partner focus on preparing in advance for that 
hazard. We work hard to explain that overall hurricane activity has 
almost no relationship to hurricane impacts in any one community. Many 
people have the perception that our hurricane risk has declined in 
recent years, especially in comparison to the very active and 
destructive seasons in the U.S. in 2004 and 2005. We remind everyone, 
however, that there is a significant difference between how busy a 
given year or a particular decade might be overall, versus how bad it 
might be where you live. The year 1992 is one of the best examples of 
this, since it was overall a below-average year for hurricanes in the 
Atlantic basin, with only one major hurricane forming, but that one was 
Andrew that struck South Florida as a Category 5 hurricane.
Improvements in Hurricane Forecasts and Observations
    In recent years, NOAA has extended tropical cyclone forecasts from 
three to five days, watches out to two days and warnings to 36 hours, 
and tropical cyclone formation forecasts from two days to five days. 
NOAA has reduced track (storm location) forecast errors by 50 percent 
over about the past 15 years. We are taking advantage of several 
opportunities that now enable us to take predictions to the next level.
    We take very seriously our annual efforts to verify our forecasts. 
Verification enables us to assess our progress in making forecast 
accuracy improvements and provides statistical information that drives 
our suite of probabilistic products that responsibly convey forecast 
uncertainties in real-time. NHC issues an official forecast of the 
cyclone's center location and intensity (the maximum surface wind 
speed) for all operationally designated tropical or subtropical 
cyclones in the Atlantic and eastern North Pacific basins. Forecasts 
are issued every six hours and contain projections valid 12, 24, 36, 
48, 72, 96, and 120 hours (five days) after the forecast's initial 
time. At the conclusion of the season, forecasts are evaluated by 
comparing the projected positions and intensities to the corresponding 
post-storm derived ``best track'' positions and intensities for each 
cyclone.
    We have made tremendous progress in hurricane prediction. Our five-
day track forecast today is about as accurate as the three-day forecast 
was 20 years ago:

    This forecast improvement has resulted in a reduction in the 
coastal area that needs to evacuate, if all other factors, such as 
storm size, are considered equal. The new supercomputers for which 
Congress appropriated funds have allowed us to run more complex and 
sophisticated forecast models, including the new Hurricane Weather 
Research and Forecast (HWRF) model. The HWRF model represents a 
significant step forward in our prediction of hurricane structure and 
intensity. The research and development has been a joint effort between 
NOAA (primarily NWS and NOAA's Office of Oceanic and Atmospheric 
Research (OAR)) and academic partners as part of the Hurricane Forecast 
Improvement Project (HFIP). This advancement highlights the importance 
of the research and operational entities working hand-in-hand to 
transfer promising research techniques into operations. Another joint 
effort between NWS and OAR, the Joint Hurricane Testbed (JHT) is a 
virtual environment for cutting-edge technology testing and 
demonstration funded by the U.S. Weather Research Program (USWRP). The 
JHT connects the tropical cyclone research community with forecast 
operations. This year, eight JHT research and development projects 
focused on improving the transition of new applied research from 
universities and Federal laboratories directly into NOAA operations in 
the areas of improved tropical cyclone and hurricane analysis, 
modeling, and forecasting techniques. A new tool available to the 
forecasters helps identify the probability of tropical cyclone genesis 
as far as five days in advance. This method was initially developed for 
the North Atlantic basin, but work is underway to expand the tool to 
other hurricane-prone ocean basins. Since its inception 15 years ago, 
the JHT has supported nearly 100 projects and demonstrated great 
success by transitioning about 70 percent of them into NWS operations, 
resulting in improved NOAA services for the public.
    HFIP is intended to improve track and intensity forecast accuracy 
by 50 percent in 10 years. HFIP continues with a multi-year, multi-
million dollar effort to improve hurricane forecasts. We are meeting 
the five-year HFIP goal to reduce hurricane forecast track and 
intensity errors by 20 percent, and to extend the useful range of 
forecasts to seven days. Recent enhancements that have been made to the 
operational HWRF have made it our best-performing intensity model over 
the 2013-15 period. HFIP is also supporting promising work to help 
identify and adjust for biases in the primary track and intensity 
models. In addition, HFIP continues to support some new product 
development and evaluation. We remain on schedule with our progress 
toward implementation of the new tropical storm surge products and 
warnings.
    Operations continue to benefit from, and rely on, aircraft 
reconnaissance. Ten WC-130J aircraft are specially configured and 
operated by the U.S. Air Force Reserve from the 53rd Weather 
Reconnaissance Squadron, 403rd Wing, located at Keesler Air Force Base 
in Biloxi, Mississippi. When flying a hurricane mission, military air 
crews fly directly through the eye of the storm several times each 
flight. They collect data and transmit it in near real time by 
satellite directly to NHC so forecasters can analyze and predict 
changes to the hurricane's path and strength. This refining of storm 
track models saves U.S. taxpayers millions of dollars. The NOAA 
Gulfstream-IV and Lockheed WP-3D Orion are part of NOAA's fleet of 
highly specialized research and operational aircraft. These aircraft 
are operated, managed and maintained by the NOAA Office of Marine and 
Aviation Operations, based at MacDill Air Force Base in Tampa, Florida. 
The G-IV flies at high altitudes around and ahead of a tropical 
cyclone, gathering critical data that depict the atmospheric steering 
flow, and that data feed into and result in improved accuracy from 
hurricane forecast models. The P-3s are NOAA's hurricane research and 
reconnaissance aircraft. These versatile turboprop aircraft are 
equipped with an unprecedented variety of scientific instrumentation, 
radars and recording systems for both in-situ and remote sensing 
measurements of the atmosphere, the earth and its environment. These 
two aircraft have led NOAA's continuing effort to monitor and study 
hurricanes and other severe storms, and other non-hurricane-related 
missions in their ``off season.''
    In 2014, NOAA successfully deployed a small unmanned aircraft--the 
Coyote--from a hurricane hunter aircraft into the eye of Hurricane 
Edouard. NOAA plans to expand the use of this unmanned aircraft in 
2016. Planned flights will measure the strongest winds and collect 
critical continuous observations at altitudes in the lower part of a 
hurricane, an area that would otherwise be impossible to reach with 
manned aircraft. Data will be sent in real-time to forecasters at the 
NHC. We anticipate data from new technologies such as this will 
contribute significantly to improved understanding of tropical cyclone 
processes and ultimately to improvements in track and intensity 
predictions.
    Data from satellites are the most critical component of NOAA's 
observation network. NOAA has managed the operation of polar-orbiting 
operational environmental satellites (POES) since 1966 and 
geostationary operational environmental satellites (GOES) since 1974. 
Over the decades, these systems have supported weather and 
environmental monitoring programs that are relied upon by users in the 
U.S. and around the world. Satellites provide more than 95 percent of 
the data assimilated into NOAA's operational numerical weather 
prediction (NWP) models. These NWP models are used to forecast the 
weather seven or more days ahead, and, in particular, the NWP models 
are essential to forecasting the development of extreme weather events, 
including hurricanes.
    Data from GOES satellites are vital for observing and tracking 
tropical cyclones, and their precursor disturbances when a few hours, 
or even minutes, matter. We are excited about the launch of the new 
GOES-R satellite, scheduled for later this year. Technological advances 
of GOES-R include improvements upon existing data, such as increased 
spatial, temporal, and spectral resolutions for Earth monitoring, and 
new observations, such as lightning data. Many of the GOES-R products 
are aimed at monitoring hurricanes and their environment and are 
expected to lead to, more timely, accurate, and actionable warnings. 
The resolution of visible satellite images will be down to \1/2\ km, 
and we will be able to receive images (pictures) every minute. The one-
minute images will allow us to see the hurricane ``breathe.'' We will 
see things and learn on a scale that we have not ever before had 
available to us. The Japanese Himawari satellite, which has the same 
imager as will be on GOES-R, has produced amazing data.
New and Planned Operational Public Products and Warnings
    Our strategy for developing new public products and warnings in 
recent years has been to focus more on the individual hazards posed by 
tropical cyclones and less on categorization of the cyclones themselves 
based on the strength of the sustained wind speeds generated at the 
(i.e., Saffir-Simpson scale using wind strength to describe hurricane 
intensity ``CAT'' 1-5). This year we will be issuing a Potential Storm 
Surge Flooding Map that will clearly and concisely depict the risk 
associated with the storm surge hazard from a tropical cyclone. 
Developed over the course of several years in consultation with social 
scientists, emergency managers, broadcast meteorologists, and others, 
this map shows:

  <bullet> Geographical areas where inundation from storm surge could 
        occur

  <bullet> How high above ground the water could reach in those areas

    Areas of possible storm surge flooding for a given tropical cyclone 
are represented in different colors on the map based on water level, as 
shown in this example:
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    We are also developing a tropical cyclone surge watch and warning 
product to compliment the flooding graphic depicted above. We believe 
this new watch/warning product will increase awareness of the potential 
life and property impacts from storm surge and flooding. Work is also 
underway to be able to issue tropical storm warnings even prior to the 
formation of a tropical cyclone, with potential debut of this 
experimental capability in 2017.
Federal Support of Hurricane Evacuation Decision-Making
    The effectiveness of our partnerships with the emergency management 
community at federal, state, local and tribal levels is as high as 
ever.
    The NWS, along with the U.S. Army Corps of Engineers, directly 
support the Federal Emergency Management Agency's (FEMA's) National 
Hurricane Program (NHP), which provides state and local governments 
with resources to inform their hurricane planning and response actions. 
This NHP support is accomplished by conducting hurricane evacuation 
studies, providing access to the HURREVAC (www.hurrevac.com) software 
program as a common platform to view hurricane forecast information and 
evacuation timing guidance, and providing real-time technical 
assistance to state and local emergency managers to support their 
hurricane evacuation and response decisions. In addition, the NHP 
partners provide comprehensive hurricane preparedness training to 
emergency managers each year. In the past 25 years, more than 1,500 
emergency managers have participated in the week-long hurricane 
workshops at the NHC, co-hosted by FEMA.
    NWS has also partnered with FEMA to provide another venue of 
Federal support for state and local governments through the Hurricane 
Liaison Team (HLT). The HLT concept was piloted during the active 1995 
hurricane season and formalized the next year following a request from 
the Governor of Florida. The HLT supports response operations by 
allowing rapid exchange of critical information regarding tropical 
cyclone hazards and potential impact between the NHC and Federal, 
state, local and tribal emergency managers. The HLT facilitates daily 
video briefings with NHC, FEMA leadership, and other senior Federal 
officials. The HLT includes NWS meteorologists, emergency managers, and 
FEMA Regional Hurricane Program Managers that have technical knowledge 
of local and state hurricane evacuation plans and trusted relationships 
with state, local and tribal emergency managers in the affected area.
    These trusted relationships begin long before hurricane threats 
develop each year. The combined efforts of the HLT and NHP ensure that 
the Nation works together to build, sustain, and improve our capability 
to prepare for, mitigate, protect against, and respond to hurricanes.
Public Outreach and Education
    Our outreach efforts serve to get the public and our partners ready 
far in advance of the next hurricane, so they know what they will do 
when we issue our forecasts and warnings for the hazards they might 
face in a real-time tropical cyclone event.
    NOAA has conducted an annual Hurricane Awareness Tour (HAT) for 
more than 30 years, alternating between the U.S. Gulf and Atlantic 
coasts. The tour now coincides with the presidentially-declared 
National Hurricane Preparedness Week. As part of its efforts to build a 
Weather-Ready Nation, each year NOAA's hurricane experts typically tour 
five U.S. coastal cities to raise awareness about the importance of 
preparing for the upcoming hurricane season. The tour typically 
includes a U.S. Air Force Reserve WC-130J or NOAA P-3 hurricane hunter 
aircraft and the NOAA G-IV aircraft. This year the tour partnered with 
the nonprofit Federal Alliance for Safe Homes (FLASH) with the 
``#HurricaneStrong'' campaign to re-energize and inspire hurricane 
resilience by increasing public awareness and action before the next 
storm strikes. The tour visited San Antonio, Galveston, New Orleans, 
Mobile, and Naples. The public and media toured the aircraft and met 
forecasters and aircraft crews. Staff from local emergency management 
offices, FEMA, non-profit organizations, such as the American Red Cross 
and FLASH, and several local NWS Weather Forecast Offices joined 
various stops on the tour.
    The Weather-Ready Nation (WRN) Ambassador initiative is NOAA's 
effort to formally recognize its partners who are improving the 
Nation's readiness, responsiveness, and overall resilience against 
extreme weather, water, and climate events.
    To be officially recognized as a WRN Ambassador, an organization 
must commit to:

  <bullet> Promoting Weather-Ready Nation messages and themes to their 
        stakeholders;

  <bullet> Engaging with NOAA personnel on potential collaboration 
        opportunities;

  <bullet> Sharing their success stories of preparedness and 
        resiliency;

  <bullet> Serving as an example by educating employees on workplace 
        preparedness.

    Building a Weather-Ready Nation requires more than government 
alone. It requires the private and academic members of ``America's 
Weather Enterprise'' to provide information for better community, 
business, and personal decision making, and innovative partnerships 
across all segments of society. We must involve everyone in an effort 
to move people--and society--toward heeding warnings, taking action, 
and influencing their circles of family, friends, and social network to 
act appropriately. The WRN Ambassador initiative is the connecting hub 
of a vast network of federal, state, local and tribal agencies,, 
academic researchers, the media, the insurance industry, nonprofit 
organizations, the private sector, and many others who are working 
together to address the impacts of extreme weather on daily life. 
Together we will inform and empower communities, businesses, and people 
to make pre-event decisions that can be life-saving and prevent or 
limit devastating economic losses. We are a nation of many communities, 
and it is only through connected communities that we will achieve this 
goal.
International Collaborations
    The hydrometeorological services of the Caribbean, Central America 
and North America have a long history of effective collaboration, 
strong relationships, and a shared focus on learning from one another 
and improving our collective service to the citizens of our respective 
nations. As NHC Director, I chair the World Meteorological 
Organization's Regional Association IV Hurricane Committee, which was 
established in 1978 and includes nations with meteorological interests 
in North and Central America and the Caribbean. This committee seeks to 
improve tropical cyclone prediction and coordination in the region by 
bringing member countries together on an annual basis to address issues 
such as data collection requirements, operational and technical 
coordination, research priorities and transition to operations, 
forecast practices and procedures, outreach, and training. The 
committee meeting is a tremendous opportunity for us to gain a greater 
understanding of how our evolving meteorological and hydrological 
services will operate each year, to enhance the benefits of our shared 
data, forecast information, and training efforts, to learn key lessons 
from the impacts in the previous year, and to update our regional 
procedures and plans so we can perform together during the upcoming 
hurricane season to the best of our combined abilities.
Conclusion
    Expectations from those NOAA serves are high, and we strive to 
exceed those expectations. All of the technologies we apply to issuing 
the best possible forecasts will live up to their full potential only 
if communities, families, and individuals also prepare far in advance. 
We all must dedicate ourselves to taking steps now to be ready, long 
before the next hurricane strikes. NWS forecasts, warnings, and 
community-based preparedness programs are vital to enhancing the 
economy and saving lives and property. It all starts with a commitment 
to environmental observations, research and improved forecasts and 
warnings, and our people (forecasters, modelers, technicians and 
managers). It culminates with striving to become a Weather-Ready Nation 
in which businesses, governments, and people are prepared to use those 
forecasts to mitigate impacts. In spite of our best efforts, hurricanes 
and tropical storms will still cause loss of life and significant 
damage. We recognize that there is always room for improvement. I 
believe NOAA and the NWS are government at its best. But I need each of 
you to know that we can do better. Even more of these impacts could be 
mitigated with more timely, accurate, and focused forecasts, watches, 
and warnings. The impacts and lives lost from the recent tropical 
disasters experienced over the past few years would have been far worse 
without NOAA's observations, research, forecasts, people and the 
extensive work of our federal, non-federal, academic and commercial 
partners to improve the Nation's preparedness for these events through 
education and outreach.
    The protection of the American people from the devastation that 
weather and water can bring is a sacred trust and duty given to the 
NOAA and NWS by Congress. Together, we must ensure our services and 
operations live up to this trust and duty. We have come a long way, but 
there is more we need to do to become a Weather-Ready Nation--to be 
ready for the event, to be responsive, and to be resilient. Remember, 
as Hurricane Andrew proved in 1992, it only takes one.

    Senator Rubio. Thank you.
    I'm going to defer the beginning of the questions to the 
Ranking Member, Senator Booker.
    Senator Booker. Thank you very much.
    I really appreciate both your written testimony as well as 
the words you spoke. You're right. I was Mayor when Hurricane 
Sandy hit, and we lost people because of the water, that storm 
surge that came in so suddenly; in one case I will never 
forget, a person drowned in their car.
    We had waves as high as 32 feet. We had storm surges at 
about 10 feet. Sea levels are continuing to rise now just 
because of climate change.
    After hearing what you just said about this incredible new 
technology that is really looking at some of these storm surge 
products and warnings, can you give us an idea about what we 
can do to try to expedite these tools coming online?
    Dr. Knabb. I am very excited to report to everyone about 
the potential storm surge flooding map going operational this 
year. That is many years in the making with a lot of social 
scientists and partners involved in the development of that 
product.
    It has been thoroughly tested. We have gone through 
exercises with the emergency managers. We really think that is 
going to be a game-changing tool for their evacuation 
decisionmaking and communicating the hazard to the public this 
year.
    We just sent out the service change notice today that that 
product is going operational today, so that is very exciting. 
It really is going to get everybody on the same page.
    The storm surge watch/warning also is more than a decade in 
the making. Even though it is going to be 2017, next year, when 
that warning goes operational, the public, everybody, will see 
a prototype storm surge watch/warning graphic this year that 
will, in no less of an important way, convey where we, as 
National Weather Service forecasters, think there is a 
significant chance of life-threatening storm surge.
    So in many ways, we are already there in terms of 
dramatically enhancing how we communicate the storm surge 
hazard in real time.
    We do want to continue to enhance these products. The 
purpose of another experimental year with this prototype storm 
surge watch/warning graphic is to get a little more feedback 
from our partners and factor that into what goes operational 
with the storm surge warning in 2017.
    Senator Booker. Dr. Knabb, if I may, and if I can correctly 
interpret the Chairman's thoughts on this as well, I have some 
concerns that we are not investing enough in R&D, and there is 
this urgent need to significantly increase our research and 
development in this area.
    Could you give me an idea of how increased R&D funding 
would help, in terms of expediting our forecasting 
capabilities?
    Dr. Knabb. Sure. So, again, just to reiterate, the 
Hurricane Forecast Improvement Project is ongoing, and it is 
leading to changes that are being implemented every year. The 
new HWRF model enhanced through HFIP over 2013 to 2015 is our 
leading intensity model during that period.
    If we want to continue to improve our track and intensity 
forecast, it has involved and will continue to involve having 
the correct, most useful data from inside the hurricane and in 
the environment; advanced computer models that leverage 
research data and other knowledge to increase our understanding 
of hurricanes and incorporate that knowledge into the models; 
assimilation schemes that allow the models to take advantage of 
all those data; and faster computers in order to run these more 
advanced models, along with the staff to do the technical work 
to get us to the next stage.
    Senator Booker. So, yes or no? Do you believe that if 
Congress and the administration were to invest more in R&D in 
this area, that it would significantly help in our 
preparedness, could potentially save many, many lives and help 
us avert significant economic damage?
    Dr. Knabb. Yes, I think that the last several years of HFIP 
show us that investing in research and development, and 
computer modeling, and data simulation capabilities, that 
allows us to utilize things like various types of aircraft data 
that we collect.
    Senator Booker. So really quick, my last question.
    NOAA's Geophysical Fluid Dynamics Laboratory, GFDL, based 
in Princeton, New Jersey, has developed cutting-edge climate 
modeling that for the first time has successfully reproduced 
the observation year-by-year variations in Category 4 and 
Category 5 hurricanes. We are very proud of that in our state. 
These results highlight the potential use of climate change 
modeling for long-term, season-by-season hurricane prediction, 
which could really help the U.S. prepare for storms.
    How could increased funding, specifically for the research 
and development of high-performance computing, improve NOAA's 
ability to provide long-term forecasting of extreme weather?
    Dr. Knabb. Yes. More computing power has already allowed us 
to run more advanced models for our 5-day forecasting. It is 
part of how we are, through Sandy supplemental funding, helping 
out with the supercomputing capabilities, allowing us to run 
the storm surge model in real time fast enough to generate that 
new potential storm surge flooding map and guidance for the 
storm surge warning.
    Likewise, if anyone is going to make progress in 
forecasting future hurricane activity over the long haul, more 
advanced models, faster computers, are part of that equation.
    But, of course, at the Hurricane Center, our focus is on 
the supercomputer power and the modeling capabilities that 
allow us to improve the accuracy of our track and intensity 
forecast in the 5-day period. Again, HFIP has shown that 
investing in that capability can lead to improvements, as it 
has, and that project is ongoing. We are going to hopefully 
continue to see some benefits from that.
    Senator Booker. Dr. Knabb, thank you for that. I may have 
to step away, but please understand that, on behalf of my whole 
entire state, we really do appreciate the important work that 
you are doing. The growing sophistication and capabilities is 
really making a difference.
    And my hope is that we as a Congress will recognize how 
much investments here can produce overall returns for this 
country as a whole.
    So I am grateful for your leadership, grateful for your 
work. I hope that we can continue to support you in more robust 
ways.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you, Senator Booker.
    Senator Nelson?
    Senator Nelson. Did you really get 32 feet of sea level 
rise surge in Hurricane Sandy?
    Senator Booker. Waves as high as 32 feet in the storm 
surge.
    Senator Nelson. Did that cover up a good part of the 
coastal New Jersey?
    Senator Booker. Oh my gosh, the devastation, I'm sure you 
remember, looking at our state, it was catastrophic. Even in a 
city like Newark, when I was Mayor, the surge came in so 
dramatically that it swept away homes, moved them off their 
foundations, swept away businesses, and, unfortunately, 
resulted in the loss of life.
    Senator Nelson. In the monster Hurricane Andrew in 1992, we 
had a 17-foot storm surge. It was a hurricane that now they 
think was well into a Category 5 with winds in excess of 160 
miles per hour. That is why it tore up so much of Homestead, 
Florida.
    I will never forget flying over in a National Guard 
helicopter; there were only two buildings left in downtown 
Homestead. One was the bank, which was very well constructed. 
The other one, Senator Rubio, was an old Florida cracker house 
that had been built back in the old days that withstood the 
winds and everything else.
    Of course, that caused a revolution in Miami-Dade County in 
building codes, much for the better, because under the old 
codes, places were just wiped out completely.
    Senator Booker. You will have to tell me one day what a 
cracker house is.
    [Laughter.]
    Senator Nelson. The old-line Floridians, like Senator Rubio 
and me, used to be referred to as crackers because they would 
drive the cattle to Punta Rassa, which is now near Fort Myers. 
And they would put those cattle on the cattle drive on a boat 
going for Havana. The way they drove them was through cow 
whips, crackers. So that is why we are Florida crackers.
    Senator Rubio. Then my ancestors would receive them as they 
came to Cuba. It is all kind of intertwined.
    [Laughter.]
    Senator Nelson. There you go.
    All right, I have just a couple quick questions. I'm going 
to make it very quick.
    Senator Booker. By the way, that is a term I will never 
use, cracker house. We don't have those in New Jersey.
    Senator Nelson. Oh, you might have a different kind house 
in New Jersey.
    Senator Booker. No, sir. No, sir.
    [Laughter.]
    Senator Nelson. OK, you have two P-3s, and you have one G-
IV. Now if they were down, you would be in a world of hurt, 
would you not, on estimating the track and intensity, and so 
forth?
    Dr. Knabb. Yes, Senator. Then NOAA G-IV jet is an 
operational resource that we utilize when the gulf or east 
coast of the U.S., or Puerto Rico or the Virgin Islands, are 
threatened by hurricane. The G-IV jet flies in the environment 
of the hurricane in a pattern that we designate to drop the 
sondes, provide vertical profile data over the data-sparse 
oceans, go into the computer forecast models, and in so many 
past cases have shown to enhance the accuracy of the model 
track forecast and, therefore, operational track forecast.
    The NOAA P-3s are research laboratories that we also 
receive the data from in real time. They have also been ideal 
platforms for many years for developing new technologies that 
have made their way onto the Air Force WC-130J aircraft.
    So, yes, the NOAA G-IV and P-3s are extremely important to 
our operations and our future developments based on that 
research.
    Senator Nelson. So if you had an accident or a maintenance 
problem, and you were down with the P-3s, you do have backup 
with the Air Force?
    Dr. Knabb. Yes, it's important to emphasize that the Air 
Force WC-130J aircraft, there are 10 of those stationed at 
Biloxi, Mississippi, at Keesler Air Force Base. They are the 
operational workhorse. We task them routinely into everything 
from a developing tropical disturbance trying to become a 
depression or storm up to Category 5 hurricanes.
    Senator Nelson. Can they drop the sondes?
    Dr. Knabb. They could.
    Senator Nelson. They drop the bigger sondes that we are 
talking about, the Coyote?
    Dr. Knabb. Right. The benefit of the NOAA G-IV jet, it 
flies at higher altitude and much faster speed than either of 
the P-3s or the C-130. So we really need the G-IV to do the 
environmental surveillance missions to get the data into the 
models, track forecasting, and the P-3s are obviously vital to 
what the hurricane research division and others are doing to 
conduct their field program to advance the science, which is 
what instrumentation like the Coyote is promising to do.
    Again, we see some of these data in real time. 
Occasionally, we see the data from the Coyote in real time. It 
is not a core part of our operations yet, but it has the 
potential to augment the heavy manned aircraft from the P-3s 
and the C-130s. So the C-130 is operational workhorse.
    Senator Nelson. What I am getting at is that you have a 
backup with the P-3s. It is single point failure with the G-IV, 
right?
    Dr. Knabb. An equivalent capability aircraft, correct. 
There is not a backup for it. But we could use the P-3s and/or 
the C-130s to do the surveillance missions, but the vertical 
profiles wouldn't be from as high of an altitude.
    Senator Nelson. And your accuracy is increased by 15 
percent by the G-IV in the vertical profile?
    Dr. Knabb. On average, it is in that neighborhood that we 
have made the improvements in past forecasting. Yes, the G-IV 
is very important.
    Senator Nelson. All right. Now tell me this, the El Faro 
leaves port, headed for Puerto Rico, and he sails right into 
the middle of a hurricane. Now there are 33 lives, most of 
which were from Jacksonville, Florida, lost.
    We are now in the investigation, finding out that they were 
getting 10-hour-old data on the storm.
    What can we do about that?
    Dr. Knabb. We at the Hurricane Center have been actively 
participating in the NTSB investigation that is ongoing.
    This is also an opportunity to remind everyone that the 
National Hurricane Center is more than just about hurricanes. 
As you have seen when you visited the center, we have a 
Tropical Analysis and Forecast Branch, TAFB. It is our largest 
branch. Marine forecasters do offshore waters and high seas 
forecasts over the Atlantic, Gulf, and Caribbean.
    We are very eager to find out all the outcomes of that 
investigation because we want to do everything possible to make 
sure that our marine users and partners are getting the data in 
a timely manner to prevent something like El Faro from ever 
happening again.
    Now to head in that direction, we have already had some 
partners visit the Hurricane Center within the last month from 
the cruise ship industry, from the cargo ship industry, and 
from the Coast Guard, talking about how we enhance how they get 
our forecasts and warnings in real time. I'm learning that some 
of the decisionmakers in the various industries that make 
decisions on routing are often folks who are on land that are 
then communicating routing decisions to the ships at sea.
    So we are going to make sure that we get training delivered 
to those decisionmakers. We are already planning an off-season 
training course next winter for these marine decisionmakers.
    Senator Nelson. Good. Thank you.
    Senator Rubio. Thank you.
    Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Dr. Knabb, thank you for your work. I just have two quick 
questions. Hopefully, they will be quick.
    I have heard reports that NOAA is or was considering 
relocating the Central Pacific Hurricane Center to Florida in 
an effort to reduce staffing levels. Is this true?
    Dr. Knabb. There are no plans within the National Weather 
Service to change the function of the Central Pacific Hurricane 
Center. In fact, we are continuing at the National Hurricane 
Center to partner with them, providing them training and 
working on ways to enhance the consistency of products and Web 
presence, and sharing of technology between NHC, the National 
Hurricane Center, and CPHC, the Central Pacific Hurricane 
Center.
    Senator Schatz. Great. So I won't go into great detail 
about this, because I think we are now on the same page, but if 
you could continue to keep in touch with our staff regarding 
any possible plans. Obviously, from an expertise standpoint, 
from a time zone standpoint, and from the viewpoint of 
logistics and relationships with local civil defense officials, 
media partners, it makes a lot of sense to keep the Central 
Pacific Hurricane Center in the Pacific.
    Dr. Knabb. Having worked in that office myself, I can tell 
you that the staff there are vital to providing decision 
support services to State and local emergency managers, and 
briefing the media.
    Senator Schatz. Great. Thank you.
    Forecasting hurricanes in the Pacific, as you know, is made 
more complicated by a lack of data. Over the course of the last 
15 named storms in the Pacific last year, our civil defense 
community learned firsthand how much of a difference more data 
and adding hurricane hunters could make. What are your Pacific 
deployment plans for Coyote UAVs and APAR units when they are 
operational?
    Dr. Knabb. The platforms that you just mentioned are 
research platforms that the research component of NOAA 
primarily schedules as part of their field program. We at the 
National Hurricane Center, and I am sure CPHC would be the 
same, we would be eager to see some of those data in real time 
and are even more eager to find out what the outcomes of those 
research efforts would be.
    We do have at the National Hurricane Center in Miami 
permanently stationed Department of Defense employees that help 
us coordinate the taskings that we issue from Hurricane Center 
Miami and CPHC in Honolulu on where we want to send the Air 
Force C-130s and the NOAA G-IV and P-3 aircraft.
    As you saw last year, those aircraft resources were 
forward-deployed to Honolulu to fly the many systems that were 
in the central Pacific. We and CPHC collaborate on that.
    Senator Schatz. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you for being here. I noted that you began your 
career in Hawaii and then moved to California and then to 
Florida, so you have seen a lot of different weather patterns 
around the country, and you have also seen differences, 
perhaps, in responses to hurricane warnings.
    Superstorm Sandy, which was a hurricane before it hit 
Connecticut, did untold and tragic damage in part because 
people failed to respond to the warnings that they were given. 
I am wondering if you have any observations on what can be done 
to improve the responses of everyone from public officials to 
citizen groups to citizens themselves?
    Dr. Knabb. Sure. I mentioned earlier the national hurricane 
program, which is a Federal partnership between NOAA, our 
agency, and FEMA and U.S. Army Corps of Engineers. That 
national hurricane program is currently going through a 
modernization. It has already been very effective to date in 
providing tools, training, and the resources, and the real-time 
decision support, for State and especially local emergency 
managers to make more effective evacuation and other decisions.
    But that program is currently being modernized, and one of 
the most exciting parts about it is that the modernized tools 
for emergency managers will be developed in lockstep with new 
National Hurricane Center products and warnings, so they are 
ready to utilize it in their systems when those products become 
available.
    In addition, we are, with many different partners, 
government and outside of government, enhancing how we conduct 
our outreach and education, and provide messages in a far more 
personal and emotional level to make people realize that we 
have to prepare our families just as much as other people do. 
So our Hurricane Preparedness Week recently focused on messages 
having to do with putting your personal and family evacuation 
plan together, buying your supplies in advance, getting an 
insurance checkup in advance, doing whatever you can now to 
strengthen your home.
    I am doing those things. By telling the public that I am 
doing those things, hopefully people realize that it is 
something that they ought to be doing as well.
    So those are just some of the things that we are doing to 
get people and our partners more prepared. When people see us 
as government partners getting more prepared, hopefully they 
have more confidence in their government and they get prepared 
as well.
    Senator Blumenthal. How about the media, in terms of the 
way it depicts or provides warnings? Have you interacted with 
them a lot? Because that is the way most people figure out 
whether they are going to move or stay put.
    Dr. Knabb. Yes. Despite the increased use of social media, 
television is still the main way that people get their 
information as a hurricane approaches. We have developed and 
continue to maintain and try to enhance our relationships with 
our media partners, both national outlets and local ones.
    Some of them come to the Hurricane Center. We engage them 
at a variety of off-season conferences. I talked to some of 
them yesterday on a webinar. One thing that we have emphasized 
going into this hurricane season is making sure they fully 
understand how to interpret this new potential storm surge 
flooding map, and the new prototype storm surge warning 
graphics, so they are conveying the right, consistent message.
    So our relationships with our media partners are absolutely 
vital, and we have increased the amount of training we provide 
to them. And they were involved in some of the development of 
this new storm surge product.
    Senator Blumenthal. They have their own meteorologists. Do 
they ever push back or differ with you as to what they think 
the response should be or whether your interpretation of the 
data is correct?
    Dr. Knabb. There are at least a couple reasons why that 
isn't a huge problem. Number one is that because we develop the 
relationships with them, they understand why we are conveying 
what we are conveying in our forecast. Our discussion products 
convey the reasoning.
    And, usually, any disagreements on exactly where the 
forecast should have been placed are well within the bounds of 
uncertainty. If you put 20 different meteorologists, even at 
the Hurricane Center, in the same room, it will not be the 
exact same forecast. But all the opinions that might be out 
there I think are still well within the bounds of the areas 
that we are trying to alert with regard to the wind and water 
hazards that they might experience.
    But we have enhanced the content of our products. Just last 
year, during Hurricane Joaquin, and then during eastern Pacific 
Hurricane Patricia, primarily for the benefit of the media, we 
inserted in our discussion product that they are very familiar 
with some key messaging points, main issues that we want our 
media partners to be focused on conveying.
    That is not just for the on-camera meteorologists, but for 
the producers and the people populating the crawls and the 
reporters and the anchors. The media feedback from that, plus 
our proactive use of social media to let them know what is 
coming in terms of Hurricane Center product, very good feedback 
from media partners. So that dialogue goes on year-round.
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you, Senator Blumenthal.
    Dr. Knabb, let me touch on a couple points.
    Number one, let me just say that there is obviously a lot 
of negativity today about government and politics, things going 
on in our country. But our men and women who serve us in public 
service, in various different fields, do an excellent job on 
our behalf, and one of those places is in the National 
Hurricane Center. I had a chance to visit there previously, 
once as a State legislator and now again as a U.S. Senator. I'm 
just incredibly impressed with the work that you do, and we 
want to thank you.
    The level of expertise and the resource that you provide, 
as was pointed out to me, which I understood before as well, it 
is not just to the men and women of the United States, but so 
many liaison partners around the world that don't have a 
National Hurricane Center of their own rely on our expertise as 
well. So that service you also provide to so many partner 
nations who have come to rely of the United States as the 
authority on these issues.
    By the way, almost as if on cue, and no one can accuse me 
of having anything to do with this, but already I see there is 
a special tropical weather outlook report. There is a system 
developing in the western Atlantic. Development is not 
anticipated for the next couple of days, but environmental 
conditions are expected to become more conducive for tropical 
or subtropical development on Friday.
    So just a reminder that even as we are meeting here today, 
everything is starting up. And hurricane season is a date on 
the calendar, but a reminder to everyone that you can have 
storms before that date. We had storms last year, I believe, 
after that date, or close to the end of the season, late in the 
season.
    So it doesn't matter when it is. It is a real issue.
    I talked in my opening statement about the legislation that 
Senator Nelson and I have worked on. We introduced it last 
year. It would require NOAA to improve guidance for hurricane 
tracking, intensity, storm surge forecast. It builds on 
important work that has already been deployed, which is the 
Hurricane Forecast Improvement Project. But it has not yet been 
congressionally authorized. Now the President's budget is 
recommending a cut of $3 million.
    So I am not asking you to opine on the congressional 
process or on the budget recommendation, but I am asking you to 
speak a little bit about how valuable this project is, the 
forecast improvement project, and how forecasting would be 
impacted should a future administration further cut or, worse, 
absent any legislation, end the program entirely.
    Dr. Knabb. Sure. I want to take this opportunity to thank 
you, Senator Rubio and Senator Nelson, for your support of the 
national hurricane program and what we do with our partners. 
That support is very much appreciated.
    It is obvious from what we have already accomplished 
through the Hurricane Forecast Improvement Project that 
investments in advanced modeling capabilities pay off, and they 
are already paying off.
    The good news is that HFIP is not going away. It is going 
on. Again, we have been able to improve our Hurricane Weather 
Research and Forecast model, the HWRF. And again, during the 
past three hurricane seasons combined, it has remarkably become 
our best-performing intensity model. That is a tremendous 
accomplishment.
    Because we have been able to make some improvements so far 
in meeting these 5-year goals with HFIP, there is promise for 
continued improvements, given a proper level of investment. 
Again, those areas of investment have to be multifaceted and 
include the data you need from inside the hurricane and the 
environment, scientific advancements, including from data like 
the Coyote and other platforms to increase our understanding of 
hurricanes, models that can use those data, and the 
supercomputer power to run those more advanced models, and, 
importantly, to have the staff that we need in order to do the 
development work and leverage the improvements that come from 
these scientific advances.
    The faster we can hire our vacancies, the better off we are 
going to be, and that has been a challenge recently.
    So all of those things require investments to move forward. 
It is always the case, and it is the case heading into this 
hurricane season, that the National Hurricane Center is fully 
prepared to carry out its operational mission, but we always 
have more difficulty in applying and having the resources to 
apply to advance our products and warning suite, and have the 
research resources, mainly in terms of people, to enhance the 
computer forecast models that has been happening during HFIP.
    Senator Rubio. You also, in your testimony, talked about 
the next evolution of the geostationary operational 
environmental satellite, which is set to be launched from Cape 
Canaveral, I believe later this year. This satellite is going 
to provide high-resolution images of storms up-to-the-minute 
every minute, and, as a result, more accurate tracking and 
intensity forecast.
    Once that satellite is launched, do you have an estimate as 
to how long it will take to come online and begin providing 
this data?
    Dr. Knabb. Yes. I will also say, before I directly answer 
that, that the National Hurricane Center has already been 
preparing itself, as have other components of the National 
Weather Service, to get ready for these new data by 
participating in what is called the GOES-R proving ground. Some 
of our forecasters have already directly had their hands on the 
operations floor on some proxy data sets that prepare us for 
what GOES-R is going to be providing.
    We have also installed in our backyard at the Hurricane 
Center, as you saw when you visited, the three dishes getting 
ready to bring down the GOES-R data.
    Once those data start flowing, after the satellite is 
launched, my understanding is that it could take up to a year 
for calibration, validation, and checkout to occur. But that 
means that perhaps at some point during the 2017 hurricane 
season, calibrated, validated data from GOES-R could be 
flowing.
    We have tried also to prepare our computing infrastructure 
for that, because we are going to have three times as many 
channels on the satellite, four times as much spatial 
resolution, and five times as much temporal resolution in the 
data, so tremendous advances are coming. We are very excited 
about what is ahead.
    Senator Rubio. In my statement as I was opening up the 
hearing, I talked a little bit about hurricane amnesia and the 
ability to forget over time about what this is like.
    I do recall 2004 and 2005, living in South Florida, we 
experienced storms, if I'm correct--I believe Katrina was in 
September, and there was one again a month later. So we lost 
power. We did not see the extensive damage of Andrew obviously 
in Florida, but Katrina went on to do extensive damage in the 
gulf coast, Louisiana and Mississippi.
    But time passes and people forget. You have been on the 
road now for the better part of last week traveling the gulf 
coast, primarily in Florida, talking to people about what they 
needed to be doing to get ready.
    What is your assessment? How aware are people that 
hurricane season is upon us? How prepared are they? What is 
your sense of the standing today among the public about the 
upcoming season?
    Dr. Knabb. I'm still very concerned that way too many 
people in the public in Florida and other states are not as 
prepared as they need to be. One of the concerns is not only 
has it been more than a decade since the last Florida 
hurricane, but in that timeframe, we have gained something like 
three million new residents in the state of Florida.
    Other metropolitan areas are similar. I just visited 
Houston, Texas, last week. Since Hurricane Ike struck there in 
2008, they have something like a million new residents in their 
metropolitan area.
    So not only do you have people who might have been through 
a hurricane in the past and maybe they have gotten out of the 
habit of preparing, or maybe they experienced the fringes of a 
hurricane in the past and they haven't really been through the 
core of a major hurricane, or maybe they are new to the 
problem, and they have never prepared for a hurricane at all. I 
think there are way too many of those people still out there, 
which is why last week during the hurricane awareness tour, 
which was merged with the presidentially-declared National 
Hurricane Preparedness Week, the themes each day focused on 
things that people, residents of our states, need to be doing 
to get ready for the next hurricane.
    That is why we focused on planning your evacuation route 
and destination in advance, buying your supplies in advance, 
updating your insurance now, because of those 30-day waiting 
periods for flood insurance, for example, and doing whatever 
you can today to strengthen your home.
    And again, by telling people that I'm doing those things 
personally, hopefully, we are reaching people a little bit more 
on an emotional level so that they realize that all of us share 
in this problem. I welcome anyone who is willing to go out 
there and share what they do to get ready for the next 
hurricane to set an example for what the public can be doing.
    Senator Rubio. One of the things we discussed, and I heard 
this discussed previously, is that one of the most devastating 
potential storms would be one that went right into the Tampa 
Bay area and right into the bay. We saw some models of what 
that would look like, rough models.
    But in essence, I think this is important. I think this is 
an area that hasn't had that event happen, at least not in 
modern times.
    Could you describe briefly for people living in the Tampa 
Bay area what that storm situation would look like and what 
level of intensity would require for the worst-case scenario? I 
was particularly impressed, I should say, and impacted by some 
of the flooding and storm surge projections where there were 
communities not necessarily on the water that could see 
extensive amounts of flooding as a result of a storm of that 
magnitude.
    If you could briefly take this moment, if you were talking 
to people in the Tampa Bay area, what would that event look 
like for them, and just sort of worst-case scenario, which, 
unfortunately, 1 day will happen, just by matter of statistics?
    Dr. Knabb. Yes, Senator. It certainly is a matter of when, 
not if. The Tampa Bay area is one of those many areas that I am 
very, very concerned about.
    They last experienced a direct hit of a major hurricane 
back in October 1921. So nearly a century later, there are a 
lot more people and a lot more infrastructure in harm's way 
there. And it is important for people to realize there that the 
storm surge flooding risk in many portions of the Tampa Bay 
area goes not just across the street from the beachfront 
property, not just blocks inland, but, in some locations, miles 
inland from the coast.
    So it is vital that people, even if you can't see the water 
from where you are at your home, find out today if you live in 
a hurricane surge evacuation zone and figure out today where 
you would go and how you would get there, if told to evacuate.
    For folks who live far enough inland, in whatever part of 
Florida or any other hurricane-prone states, if you are not in 
one of those storm surge zones, find someone you care about who 
is and plan now to be their inland evacuation destination.
    But again, that storm surge hazard in the Tampa Bay area, 
like in many other areas, goes miles inland. That is why it is 
even more important that we are going operational this year 
with our potential storm surge flooding map, because if people 
haven't gotten it by that time, then when that product comes 
out, if a hurricane is threatening that area, then we will be 
showing people just how far inland from the immediate coastline 
the storm surge flooding could go in that scenario.
    Senator Rubio. How could someone, whether it is in the 
Tampa Bay area or anywhere else, see whether their home is in 
that? Where would they go? Where is the resource they can go 
to, to see whether their property or where they are living is 
located in that zone?
    Dr. Knabb. The best advice is to contact your local 
emergency management agency in your county, your city. In the 
state of Florida, you shouldn't have too much trouble getting 
information from them about what evacuation zone, if any, that 
you live in.
    Your local emergency managers have prescribed those 
evacuation zones, in large part based on guidance from the 
Hurricane Center on who is vulnerable to storm surge. So when 
they prescribe those evacuation zones, they are doing it for 
good reason. When they call for evacuations and tell people to 
evacuate, it is vital that they go because they will do that 
based on advice from the National Weather Service on who is 
vulnerable to storm surge in that situation.
    Senator Rubio. To that, I would just add, oftentimes, this 
is anecdotal, but I've heard from people who live on the sixth 
floor of a building and their argument is that there is not 
going to be water on the sixth floor. That is not really the 
point. The point is if you live on the sixth floor but the 
street is heavily flooded, you can't get out, nothing can get 
in. And if, God forbid, you have a medical emergency, 
responders can't get there either.
    So people need to understand that being in the zone, it 
doesn't matter if you're on the tenth floor of a big building. 
That doesn't mean you'll be able to get out for days to come in 
a worst-case scenario, such as the one you described.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman. And thank you for 
this very important hearing.
    Although it was a Nor'easter that delivered the perfect 
storm, Massachusetts is not immune to hurricanes. We saw the 
effects from Hurricane Noel in 2007, Hurricane Earl in 2010, 
and Hurricane Irene in 2011; storms that began off the coast of 
Africa, traveled across the Atlantic, hang a right, and 
sometimes find themselves in New England.
    And if they are anything like Boston drivers, they do so 
without a turn signal.
    [Laughter.]
    Senator Markey. That is what we get hit with.
    But with the National Hurricane Center at the wheel, we 
have the best science and technology to predict where the 
storms are going to go. You are our needed turn signal, and we 
thank you for that.
    But there is still room to improve. There are still many 
questions about hurricanes. Answers to them will enhance the 
prediction of track intensity and when a storm may transition 
into an extratropical system, one that is powered by 
differences in atmospheric temperatures rather than ocean 
temperatures that drive hurricanes.
    One of the big questions remaining is: what will hurricanes 
look like in a warmer world? Scientists expect stronger storms 
with a higher frequency of the most intense storms, and heavier 
rainfall. In addition, sea level rise will enhance the threat 
from coastal storms and flooding.
    While hurricanes are sometimes such that we can only 
predict and prepare for them, we can do something to steer the 
path of climate change, and we must do that. Now that is of 
concern to us because of all the places on the planet, the 
entire planet, it is the sea surface temperatures off of New 
England that are warming faster than any place else on Earth.
    As temperatures continue to warm along the mid-Atlantic and 
New England coast, how might the northern extent of these 
storms change, Doctor?
    Dr. Knabb. Certainly, there is a lot that we know about how 
the climate has changed up to this point. It is rather 
uncertain how much the numbers and strength of hurricanes have 
changed in the decades prior to leading up to now, mainly 
because we haven't had current monitoring tools as long as 
people might think. We have only had the satellites for half a 
century, and aircraft reconnaissance since the 1940s.
    Then looking forward, there still remains a lot of 
uncertainty with regard to what will change in terms of the 
numbers and strength of hurricanes.
    Senator Markey. So especially the kinds of storms that lose 
strength as they head north? What could it mean in the future 
as our ocean gets warmer and warmer in terms of the intensity 
of these storms further north as they get that extra fuel out 
of the ocean?
    Dr. Knabb. We have many, many events in the northeastern 
U.S. to point to in the last many decades to show it is a 
relatively frequent occurrence to have systems, hurricanes, 
major hurricanes moving north and then having tremendous impact 
up in the Northeast.
    In fact, one of these days, Senator Rubio, we are going to 
start having hurricanes in Florida like they do in the 
Northeast. We have had them hitting the Northeast with quite a 
bit of frequency the last few years.
    The main concern I have with regard to how hurricane 
impacts are going to change in the future, and many cities and 
states in the Northeast are no exception, is that even if the 
numbers and strength of hurricanes don't change, and even if 
the behavior of the storms that move up the East Coast and into 
the Northeast don't change, the potential for rising sea 
levels, the increased population, and the increased 
infrastructure, I am really worried about increased impacts 
from storm surge, from heavy rainfall.
    And that, to me, is the biggest challenge that we face in 
coastal regions over the years and decades to come.
    Senator Markey. When we had that huge 111-inch snowstorm 
last winter, a series of snowstorms that just came week after 
week, they were measuring temperatures in the ocean off of 
Boston 20 degrees warmer than normal. This was off the coast of 
Boston in the winter.
    As that cold air hit them, that warmer water is really what 
led to that Gronkowski-like spike of snow that came down on us. 
It was a very simple phenomenon.
    Obviously, we are getting more concerns as our waters warm 
in terms of what the implications can be, because it was a 
``there but for the grace of God'' situation that the storm 
that hit New Jersey and New York did not hit us just 3 years 
ago.
    Can you discuss some of the forecasting challenges with 
extratropical transition and why it is hard to predict exactly 
when the changes from a tropical storm to something that looks 
more like a Nor'easter will occur?
    Dr. Knabb. Yes, as Sandy and many other storms in the past 
have shown, it is in real time rather uncertain, in many cases, 
to forecast exactly when a tropical cyclone, a tropical storm, 
a hurricane, will lose its tropical characteristics.
    The reason that is difficult is that involves the changes 
in the inner core structure of a hurricane. That is very 
difficult to forecast. Computer forecast models are getting 
better at forecasting that. But because that is so difficult, 
and because that kind of transition can happen near the 
coastline, after the dilemma we faced in Sandy going forward, 
we can continue to issue National Hurricane Center forecasts 
and advisories even after a hurricane has lost its tropical 
characteristics. We can maintain or issue tropical storm or 
hurricane watches and warnings. We can do that also for the 
storm surge watches and warnings, once they become operational 
in 2017, for a tropical system, a hurricane that loses its 
tropical characteristics.
    In addition, for a purely extratropical situation, NOAA is 
taking a proactive approach in looking at all of the components 
of our agency that could bring to bear forecast products and 
warnings for extratropical storm surge.
    Senator Markey. May I ask one final question, Mr. Chairman? 
Thank you.
    In recent years, we have seen more land-falling storms in 
the Northeast, in the mid-Atlantic, than we have in Florida. 
Can you talk about that phenomenon and what you think might be 
occurring?
    Dr. Knabb. Where the hurricanes go from year to year, from 
decade to decade, is a very chaotic system. It is not very 
predictable at all.
    We have had periods in the past, like the 1950s, that were 
very, very busy for the East Coast, the mid-Atlantic, and 
northeastern hurricanes. Then we saw what happened in 2004 and 
2005 with Florida receiving unprecedented back-to-back 
hurricane impacts in each of those years.
    No one knows where this year's hurricanes are going to go. 
I have not seen convincing research that tells us we can 
predict who is going to get more hurricane landfalls in the 
future.
    But I do know that for any of us, Texas to Maine, and 
places inland from the coast, it is simply a matter of when, 
not if, the next tropical storm or hurricane brings wind, 
water, or both to your community worse than you have ever 
experienced. So no one is off the hurricane hook this year or 
in future years.
    Senator Markey. Thank you for your good work.
    Thank you, Mr. Chairman.
    Dr. Knabb. Thank you, Senator.
    Senator Rubio. Thank you, Senator Markey.
    I want to thank you, Dr. Knabb, for being here today. It is 
a timely hearing that hopefully, in addition to informing 
members of this panel and the Senate about the important work 
you do and what needs to happen, I hope it will also serve to 
inform the public about the constant threat we face from these 
weather events. It is no longer just a southern U.S., 
southeastern U.S., Gulf of Mexico issue, but, in fact, one that 
is increasingly impacting other parts of our country, as we 
have heard here today. So I thank you.
    The hearing record is going to remain open for two weeks. 
During this time, Senators are asked to submit any questions 
they might have for the record.
    Upon receipt, Dr. Knabb, I ask that you submit your written 
answers to the Committee, if there are any, as soon as you 
possibly can.
    With that, that concludes our hearing.
    I want to thank you again for appearing today.
    The hearing is adjourned.
    [Whereupon, at 3:28 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. John Thune to 
                           Dr. Richard Knabb
    Question. We have been monitoring the situation of the necessary 
relocation of NOAA's Aircraft Operations Center (AOC). Our 
understanding is that moving forward NOAA plans to award a short-term 
lease option on, or before, January 2017, that will not exceed 10 
years. In order to retain AOC's highly specialized staff and meet the 
Atlantic hurricane mission requirements, NOAA has focused its short-
term airfield and hangar options within 50 road miles of the MacDill 
AFB main gate. For the long-term solution, NOAA plans to initiate a 
Nationwide Business Case Analysis. If a nearby location for the long-
term airfield and hangar solution cannot be found, what other locations 
would meet NOAA's mission requirements?
    Answer. NOAA's aircraft mission requirements cover many areas 
ranging from snow water equivalent detection, to air chemistry 
research, to winter storms, El Nino, and of, course, hurricanes. NOAA 
aircraft fly missions in areas spanning the entire United States, to 
include the central and eastern Pacific Ocean, and covering most of the 
Atlantic Ocean. Supporting NOAA's hurricane missions are arguably 
NOAA's most critical requirement and locating the NOAA aircraft 
Operations Center in the southeastern states, especially Florida, is 
most effective for meeting that particular mission. Extensive costs to 
``pre-stage'' aircraft to be able to support the hurricane missions 
make other locations farther away from this region much less favorable 
and not affordable.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                           Dr. Richard Knabb
    Question 1. Technology has taken us from a time where the only 
forecasting available was from the conditions fishermen and mariners 
were able to relay to shore, to a time of satellites, super computers, 
intelligent minds and a fleet of aircraft. What would you credit as the 
biggest advancement in hurricane forecasting?
    Answer. Multiple technological advancements during the past several 
decades have simultaneously contributed to our increased understanding 
of hurricanes and to improvements in our forecasting capabilities. 
Geostationary satellites arguably provide our forecasters with their 
most fundamentally critical observational data for monitoring all 
stages of a hurricane's development and life cycle, leading to 
indispensable benefits to timely forecasts and warnings. Data from 
polar orbiting satellites are also extremely important, for our 
computer models to correctly depict and then forecast the state of the 
atmosphere on a larger scale, and these data also enhance human 
analyses of tropical cyclone internal structure and environmental 
factors that contribute to better forecasts. Advances in physical 
sciences knowledge, coupled with these improvements in observing, have 
also led to improvements in understanding and modeling. Aircraft 
reconnaissance data provide much needed smaller-scale data from within 
tropical cyclones and developing disturbances that are vital to our 
operational forecasts and warnings, and these data are also 
increasingly utilized by higher-resolution hurricane forecast models, 
including those currently in operational use and those still under 
development via programs like the Hurricane Forecast Improvement 
Project (HFIP). Overall, the combinations of advancements in satellite 
data observations, improvements in the understanding of the physical 
factors, and advanced computer model forecasts, augmented by aircraft 
reconnaissance in our areas of responsibility, have together produced 
the advancements in hurricane forecasting that we have seen and that we 
expect will continue.

    Question 2. Speaking of advancements, NOAA has been testing a small 
unmanned aircraft system (UAS) that is deployed directly from the P-3 
Hurricane Hunter. This UAS, named ``the Coyote,'' is expected to better 
capture atmospheric data in areas of a storm where manned aircraft 
cannot travel. This technology is promising, especially as the costs of 
the unit can decrease. What is the status of the Coyote and its use for 
the 2016 season? Where do you see the technology taking us--what, in 
your opinion, is the next step in hurricane forecasting advancement?
    Answer. NOAA has six Coyote UAS aircraft available to test in 2016. 
The goal is to fly these Coyote into mature hurricanes and transmit 
critical data in real time to NOAA's operational centers (National 
Hurricane Center and Environmental Modeling Center). While not 
currently a significant part of our operational analysis and 
forecasting process, operational forecasters can view and evaluate data 
from the Coyote, providing feedback to researchers. The goal for the 
NOAA UAS Coyote is to transform this promising R&D technology into a 
more economical operational tool. Operational forecasters are eager to 
see how this technology evolves, because platforms like the Coyote 
offer the potential to linger at specified flight levels and collect 
data in portions of the hurricane circulation where more data are 
needed more frequently. Modifying instruments currently used on the GPS 
dropsondes and integrating them with the targeted low level flight 
capabilities of the Coyote UAS has the potential to allow scientists to 
regularly and reliably sample the lowest regions of the hurricane for 
an hour or longer which could be valuable for increased understanding 
of hurricane physics, and ultimately operational model and forecast 
improvements. We still envision that the manned aircraft used by NOAA 
and the U.S. Air Force will continue to be our primary operational 
sources of aircraft data within hurricanes for the foreseeable future, 
due to many characteristics such as their fast speed, ability to survey 
a storm in the period of time needed for operational forecasts and 
warnings, and ability to carry a full payload of necessary 
instrumentation.
    NOAA is pursuing other technological advancements that could prove 
important in advancing hurricane prediction, including the capability 
to enhance wind measurements in and around hurricanes through the use 
of Doppler Wind Laser Radar (Lidar) and evaluating the impact of real 
time weather data gathered by the NASA Global Hawk Unmanned Aerial 
System on weather and hurricane prediction models.
    We are also looking forward to the detailed data that will be 
available from GOES-R--which is scheduled to be launched later this 
fall.

    Question 3. I wholeheartedly agree that we need to be a Weather-
Ready Nation, where our people, businesses and governments are prepared 
for, and able to respond quickly to, severe weather events. In terms of 
collaboration with Federal, state and local officials, can you speak to 
how important those partnerships are, and what, if any gaps exist?
    Answer. The collaboration with Federal, state, and local officials 
and the much broader community is essential to achieving a Weather-
Ready Nation. We now have over 3,500 Weather-Ready Nation Ambassadors 
who are our partners, committed to working with NOAA and other 
Ambassadors to strengthen national resilience against extreme weather. 
In effect, the Weather-Ready Nation Ambassador initiative helps unify 
the efforts across government, non-profits, academia, and private 
industry toward making the Nation more ready, responsive, and resilient 
against extreme environmental hazards. We are seeing much more weather 
awareness than ever before, and we are hoping this trend will continue 
as we realize our vision of a Weather-Ready Nation. Part of meeting 
this goal will be increased emphasis on social science research to 
complement NOAA's physical sciences research and operational 
activities. As an example of our proactive approach to promoting 
hurricane resilience, we collaborated more closely than ever before 
with numerous Weather-Ready Nation Ambassadors in conducting the NOAA 
Hurricane Awareness Tour this past spring, resulting in increased media 
and public attention on tangible steps that individuals, families, and 
businesses must take well in advance of the next hurricane.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
